No.

Supreme Court. U.S.
FILED

20

JUN 0 ‘i 2020

I '!

OFFICE OF THE CLERK

%■

■

\'

IN THE

i>

¥

.

SUPREME COURT OF THE UNITED STATES

Michael Fred Houston

-PETITIONER

VS.

THE STATE OF TEXAS

—RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SIXTH COURT OF APPEALS OF TEXAS
PETITION FOR WRIT OF CERTIORARI .

Michael Fred Houston
Telford unit 3899 State Hwy 98
New Boston,TX 75570

«

pt

p

\

,i

A

I & y i? thfa p

t

(i)

m

:p

'V

question(s) presented

•

1) Does under the totality of the circumstance, is the in-court identification
reliable even though the confrontation procedure was suggestive?
^ 2) Did the Court fo. Apppeals reversibly err in denying the defendent's motion
to suppress the identification testimony of the complaining witness
obtained after a single photo displayed to that witness?

(ii)

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.

*

RELATED CASES
Michael Houston v. The State of Texas, No.46857-B, l24th District Court of Texas
Judgement entered April 18, 2019
Michael Houston v. The State of Texas, No.06-19-00091-CR, Sixth District Court
of Appeals of Texas, Judgement entered Jan. 10,2020
Michael Houston v. The State of Texas, No.PD-0126-20, Criminal Court of Appeals
of Texas, Refused Mar. 11,2020

(iii)

TABLE OF CONTENTS

•«

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7
12

CONCLUSION

INDEX TO APPENDICES
/

APPENDIX A Decision of State Court of Appeals
APPENDIX B Decision of State Trial Court
APPENDIX C Decision of State Supreme Court Denying Review
APPENDIX D Opinion of August V. State 588 S.W. 3d 704 (Tex.App.-Houston
[14th Dist.]2019)
APPENDIX E Opinion of the Sixth Court of Appeals of Texas

(iv)

TABLE OF AUTHORITIES CITED

CASES
i

PAGE NUMBER

August v. State, 588 S.W. 13d 704 (Tex.Crim.App.-Houston[14th Dist.]
2019 no. pet)

10

Barley v. State, 906 S.W. 2d 271 (Tex.Crim.App.1995)

11

Bloodworth v. Hopper, 539 F.2 1382 (5th cir.1976)

8

Ex Parte Milligan, 71 U.S. 2, 118-19 (1866)

11

Foster v. California, 394 U.S. 440 (1967)

10

Griffith v. Kentucky, 479 U.S. 314 (1987)

7

Manson v. Brathwait, 432 U.S. 98 (1977)

9,10

Moor v. Dempsey, 261 U.S. 86 (1923)

11

Neil v. Bigger, 409 U.S. 188 (1972)

7,8,9,10

Simmons v. United States, 390 U.S. 377 (1968)

7,107,8

Stovall v. Denno, 388 U.S. 293 (1967)
United States v. Gidley, 527 F.2d 1345 (5th cir.1976)

8

United States v. Smith, 546 F.2d 1275 (5th cir.1977)

8

STATUTES AND RULES
TEX. PENAL CODE § 29.03
28 U.S.C. § 1257 (a)
28 U.S.C. § 1746

OTHER

(v)

IN THE
SUPREME COURT OF THE UNITED STATES
:

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[] reported at
i °r,
L] has been designated for publcation but is not yet reported; or,
[X] is unpublished.
The opinion of the Sixth Court of Appeals of Texas court appears at
Appendix A to the petition and is
(;] reported at
.5 or,
[] has been designated for publication but is not yet reported; or,
[X] is unpublished.

1.

JURISDICTION
[X] For cases from state courts:
!

The date on which the highest state court decided my case was 03/11/2020.
A copy of that appears at Appendix C .
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

In all criminal persecution, the due process of the Fourtennth Amendment U.S.
Constitution prohibits a State from depriving "any person of life,liberty,or
property without due process of law". When a pre-trial identification proce­
dure may be so suggestive and conductive to mistaken identification that sub­
sequent use of the identification at trial would deny the accused due process
of law.

3.

STATEMENT OF THE CASE
On August 2, 2017 Mr. Houston was indicted fo the offense of Aggravated
i

Robbery alleged to have been committed against Ms. Eleanor Joyce Brown. Under
TEX. PENAL CODE § 29.03
On May 17, 2018 Mr. Houston filed a motion to suppress seeking to supress
identification testimony. That same day a hearing was scheduled to be heard on
Mr. Houston's motion to supress. The hearing was rescheduled due to a critical
witness being unavailable. The trial court conducted a pre-trial hearing on
July 25, 2018.
At pre-trial the following witnesses testified.
Officer Christopher Byrdsong testified for the State. He stated that he was
employed by the Longview Police Department. He testified that on April 29, 2017
he and officer Nino were dispatched and advised that a black male left the . c.e
scene in a black Chrysler passenger car. Officer Byrdsong stated that he rode
around to see if he could find a car that matched that discription. He said
that he combed about a mile radius from the ..Dollar General located at 2324
Judson Road in Longview and found a black four-door Chrysler at the apartment
at 2900 McCann. Moments later, officer Byrdsong saw the car moving. He made a
traffic stop to identify the driver. Officer Byrdsong stated that there was a
black female driving the vehicle and there were four small children inside.
The driver was identified as Natasha Houston. Officer Byrdsong testified that
he ran the plates on the car and it came back belonging to a Michael Fred
Houston.
Officer Fernando Nino testified for the State. He stated that he was a patrol
officer with the Longview Police Department. Officer Nino confirmed that on
April 29, 2017 he was dispatched to the Dollar General around 9:31 a..m. for an
aggravated robbery. He said that he was the primary officer investigating the
incident and that he made direct contact.with victim, Ms. Brown. He testified

4.

that he asked Ms. Brown for a description of the suspect and a description of
the vehicle the suspect was driving. He described Ms. Brown as shaken up,
scared and nervous. Officer Nino testified that Ms. Brown said that a black
male exited from a black Chrysler, opened the door to her vehicle and removed
her purse. Officer Nino said that she stated that he displayed a handgun to>-w
wards her and asked for her phone and she told him that it was in her purse.
Officer Nino testified that he received a call from officer Byrdsong who
found a vehicle matchinggthe description at the Parkway Gardens apartments.
Officer Nino stated that officer Byrdsong asked him to show Ms. Brown a mugshot of the subject named Mr. Houston as the suspect. Officer Nino confirmed
that this was an improper way to do a photo^ lineup.
Detective Armando Juarezortega testified for the State. He stated that he was
employed by the Longview Police Department and was involved in investigating a
robbery that took place at the Dollar General on April 29, 2017. He stated that
he interviewed Ms. Brown on May 4, 2017. Detective Juarezortega stated that Ms.
Brown said that the suspect was holding the gun in his left hand and holding
her purse with his right hand. He said that she mentioned thatshe did not think
he had facial hair and described his haircut. Detective Juarezortega testified
that Ms. Brown described the assailant as a black male, slim built with short
hair, probably 20-25 years of age and that he was wearing a white t-shirt. She
told him that the assailant did not have tattoos.
Eleanor Joyce Brown testified for the State. Ms. Brown confirmed that she we
went to the Dollar General on April 29, 2017 around 9:15 in the morning. She
stated that she was on her way to Daingerfield. She stated that she came out of
the Dollar General,ngot into her car and turned the bluetooth on. She said that
she put her purse in the passenger seat of the car and made contact with a
fellow who had pulled up close to her. She said that he was parked very close
to her on the passenger side of the car. Ms. Brown testified that he opened the

5.

door, grabbed her purse, pushed a gun in her face, and said "Give me your phone
bitch". She confirmed that she was lokking at the man the entire time. Ms.
Brown stated that he was driving a black four-door sedan. Ms. Brown confirmed
that later on an officer showed her a photograph of someone the police thought
l

might have done this. She testified that she did not use the picture at all to
help her identify the person.
The trial court denied the motion to suppress at the conclusion of the
suppressing hearing. The trial court did not exercise its discretionary authori
ity to re-open the suppression hearing, and parties did not religate the motion
to suppress during trial. In reviewing the trial court's denial of Mr. Houston's
motion to suppress, the only evidense that should be considered is the evidense
presented at the pre-trial hearing. The improper suggestiveness of the single
photo display having been conceeded, the reliability of Ms. Brown's identifier
cation is at issue.
Eleanor Joyce Brown not only viewed a single photograph of the defendent very
shortly after the offence in question, she also saw Mr. Houston alone in jail
clothes at the suppression hearing,.-at a subsequent docket call, and agian
alone at trial. There should be no doubt but that this procedure was as a whole
impermissibly suggestive. The suggestive pre-trial procedure at bar gave a very
substantial likelihood of misidentification.
The trial court improperly found Ms. Brown's identification was untainted.
Mr. Houston filed his direct appeal raising a claim that trial court erred
in denying Mr. Houston's motion to suppress the identification testimony of the
complaining witness obtained after a single photo display to the witness.
The Sixth Court of Appeals of Texas affired the trial court's judgement. By
placing the burden on Mr. Houston to over come impermissibly suggestive test­
imony. See Appendix A, op.at P. 7.
The court of Criminal Appeals of Texas refused Mr. Houston's petition for
discretionary review. See Appendix C
.6.

REASON FOR GRANTING THE PETITION
Since the Court of Criminal Appeals of Texas refused Petitioner's R.D.R., .
Petitioner's complaint goes to the Sixth Court of Appeals of Texas ruling that
Petitioner failed to show by clear and convincing evidence that the in-court ...
identification was unreliable.
Review of this issue should be granted because:
1) The Sixth Court of Appeals has decided an important federal question in a
way that conflicts with relevant decisions of this court.
2) The Sixth Court of Apeeals of Texas has entered a decision in conflict with
I

the decision of another Texas Court of Appeals on the same important>matter.
QUESTION I.
Does under the totality of the circumstance, is the in-court identification
reliable even though the confrontation procedure was suggestive?
In the present case the Sixth Court of Appeals observed that the "Sole
evidence tying the Petitioner to the aggravated robbery consisted in the in­
court identification by the complaintent Ms. Eleanor Joyce Brown".
On the constitutional issue the court stated that the first inquiry was
whether the police used...an impermissibly suggestive procedure in obtaining the
out-of-court identification, citing Stovall v. Denno, 388 U.S. 293,294 (1967);
Griffith v. Kentucky, 479 U.S. 314, 326 (1987); Simmons v. United States, 390
U.S. 377 (1968)
The court concluded that "The pre-trial identification process was impersca
missibly suggestive", but "an unnecessarily suggestive pre-trial identification
procedure did not, in itself, intrude upon a constitutionally protected interes;,
est". The court moved..to the second step in the analysis.
"Assessing the reliability of the identification under the totality of the
circumstances", stablished under the factors by Neil v. Biggers, 409 U.S. 188,
199 (1972).

7..

The Court of Appeals analysis of the totality of the circumstances under the
retroactive application by Neil v. Biggers 409 U.S. 188,199 (1972), was the
incorrect application.
The Court's experience may have convinced the court that the retroactive
application of this,portion of Stovall also would have a drastic effect on law
enforcement; it was, as said in Neil v. Biggers, supra, 409 U.S. at 199, the
first occasion on which the court "gave notice that the suggestiveness of confomtation procedure was anything more other then a matter to be argued to the
jury".
This interpretation of Neil v. Biggers- that it qualified the Stovall
standard only with respect to pre-stovall cases.
In Stovall v. Denno, 388 U.S. 293, 87 s.ct. 1967, 18 L.Ed.2d 1199 (1967).
The Supreme Court established the due process standard against which police
identification procedures are to be measured. A violation of due process occurs
when, under "the totality of the circumstance", a confrontation procedure is
"unnecessarily suggestive and conductive to irreparable mistaken identification.
Within this court's the due process standard has developed into a bipartite
inquiry, United States v. Smith, 546 F.2d 1275 (5th cir. 1977); Bloodworth v.
Hopper, 539 F.2d 1382 (5th cir. 1976); United states v. Gidley, 527 F.2d 1345
(5th cir. 1976). First, as a threshold inquiry, the court should decide whether
the identification procedure was unnecessarily suggestive. A finding of imper­
missible suggestiveness raises concern over the reliability of identification
and triggers closer scrutiny by the court to determine whether such a procedure
created a substantial risk of misidentification. Untied states v. Smith,supra,
at 1279; United States v. Gidley,supra, at 1350.
In the case at bar petitioner pre-trial confrontation was impermissibly
suggestive. The description that Ms. Brown first described of her assailant was
simply "a black Male". Shortly after at the crime scene Officer Fernando Nino

8.

displayed a single photo mug shot of petitioner, to Ms. Brown and she ident­
ified petitioner as the suspect. Officer Nino confirmed that this was an impro­
per way to do a photo lineup.
The State conceded that the single photo display by Longview Police Officer
Fernando Nino Jr. was improper.
RELIABILITY OF IDENTIFICATION:
If the pre-trial procedure is found to be impermissibly suggestive, ident­
ification testimony would nevertheless be admissible if the totality of the
circumstance shows no substantial liklihood of misidentification. Reliability
is the critical question.
The trial court did not exercise its discretionary authority to reopen the
suppression hearing, and the parties did not consensually relitigate the motion
to suppress during trial, and the trial court's denial of petitioner's motion
to supress, the only evidence that should be considered is the evidence pre­
sented at the pre-trial suppression hearing.
In Maason v. Brathwait, 432 U.S. 98,97 S.ct. 2243, 53 L.Ed.2d 140 (1977),
the Supreme Court emphized that "reliability is the linchpin in determining the
admissibility of identification testimony"... 432 U.S. at 114,97 S.ct. at 2253.
Unquestionably, supreme court jurisprudence attaches overriding importance to
the reliability factor in appraising the totality of the circumstances. Brathwait
reaffirms that the reliabilty determination rests upon evaluation of the factors
enumerated in Neil v. Biggers, 409 U.S. 188,93 S.ct. 375,34 L.Ed.2d 401 (1972).
The factors included "the opportunity of the witness' degree of attention, the
accuracy of his prior description of the criminal, the level, of. certainty demon­
strated at the confrontation, and the time between the crime and the confronta­
tion". 409 U.S. at 199-200,93 S.ct. at382. See also Manson v. Brathwait,1977,
432 U.S. at 114,97 S.ct. 2253. The "against these factors is to be weighed the
currupting effect of suggestive identification itself" in deciding whether due

9.

process has been observed. Manson v. Brathwait,1977, 432 U.S. at 114,97 S.ct.
at 2253.
Moreover, in Simmons v. United States, 1968, 390 U.S. 377,88 S.ct. 967,19 L.
Ed.2d 1247, involving a pre-trial photo identification, the court phrased the
test as whether the identification procedure "was so impermissibly suggestive
as to give rise to a very substantial liklihood of irreparable misidentification".
390 U.S. at 384,88 S.ct. at 971. The Stovall phraseology was subsequently re­
peated in Foster v. California, 1967, 394 U.S. 440, 442, 89 S.ct. 1127,22 L.Ed.
2d 402. Both are used in Neil v. Biggers,1972, 409 U.S. 188,98 S.ct. 375,34 L.
Ed 2d 401 and are referred to in Manson v. Bra,thwait,432 U.S. 98,97 S.ct. 2243,
53 L.Ed 140.
Therefore, the application under retroactive that the Court of Appeals analysised Petitioner's sole issue of denial of due process should not stand.
Petitioner requests that this Honorable court grant his Ceriorari.
QUESTION II.
Did the Court of Appeals reversibly err in denying the defendent's motion
to supress the identification testimony of the complaining witness obtained
actafter saagiqgte-'pho to ^ displayed to; tha t -wi tnes s ?
The opion of the Court of Appeals fails to discuss August v. State, 588 S.W.
3d 704 (Tex. App.-Houston[14th Dist.] 2019, no pet.), where in the 14th Court
of Appeals reversed a conviction for burglary and ordered a new trial holding
that a Police "on the scene" single photo identification procedure was improp.erly suggestive based on the totality of the circumstances and only evidence
presented at a suppression hearing, not trial evidence, On a de novo review of
evidence adducted at a suppression hearing the appeals court closely scrutin­
ized police videos and conversation in the presence of an allesed eyewitness
and found the recollection of that witness to be fatally contaminated. See
Appendix D.

10.

The opinion of the Court of Appeals points out in great detail that trial
evidence that arguably leads to a jury reasonably concluded that Petitioner is
the person who robbed an eighty-five year old woman of her purse and cell phone
at gun point. Regardless that the complaining witness only identification to ...
the officer at the scene that her allailent was simply"a black male".
Such evidence included DNA evidence allegedly linking Petitioner to the
complaintant1s purse, prominent facial tatoos, and Petitioner's gold teeth.
A pre-trial identification procedure may be so suggestive and conductive
to mistaken identification that subsequent use of that identification at trial
constitutes a denial of due process. Barley v. State, 906 S.W. 2d 27,32-33
(Tex.crim.App.1995).
Petitioner respectfully request that this Honorable Court grant his
Certiorari.

To the Honorable Court, Petitioner respectfully expresses his earnest desire
for the court to remain mindful that the paramount focus in his particular
judicial matter "is not [Petitioner's] innocence or guilt, but solely whether
[his] constitutional rights have been preserved". AccordlMpore v. Dempsey, 261
U.S. 86,87-88 (1923)(habeas corpus relief available to redress due process
violations "regardless of the heinousness of the crime... [and] the apparent
guilt of the offender"); Ex Parte Milligan,71 U.S. 2, 118-19 (1866)("[l]t is
the birthright of every American Citizen when charged with a crime, to be
tried and punished according to the law, and if they are ineffectual, there is
an immunity from punishment, no matter how great an offender an individual may
be or how much his crimes may have shocked the sence of justice or the county,
or endangered its safty. By the protection of the law, human rights are secured,
withdraw that protection, and they are at the mercy of wicked rulers, or the
clamors of excited people.").

11.

CONCLUSION

The petition for writ of certiorari should be granted.

Respectfully submitted,

Date:

sln/Wo

t

k

A

12.

j

